<html>
<title> - [H.A.S.C. No. 113-130] NATIONAL DEFENSE PANEL ASSESSMENT OF THE 2014 QUADRENNIAL DEFENSE REVIEW</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 113-130]

                   NATIONAL DEFENSE PANEL ASSESSMENT
                        OF THE 2014 QUADRENNIAL
                             DEFENSE REVIEW

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            DECEMBER 2, 2014


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                    

                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

91-815                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                 Mike Casey, Professional Staff Member
                           Aaron Falk, Clerk



















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, December 2, 2014, National Defense Panel Assessment of 
  the 2014 Quadrennial Defense Review............................     1

Appendix:

Tuesday, December 2, 2014........................................    39
                              ----------                              

                       TUESDAY, DECEMBER 2, 2014
   NATIONAL DEFENSE PANEL ASSESSMENT OF THE 2014 QUADRENNIAL DEFENSE 
                                 REVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Edelman, Hon. Eric S., Panelist, National Defense Panel, Former 
  Under Secretary of Defense for Policy..........................     5
Flournoy, Hon. Michele, Panelist, National Defense Panel, Former 
  Under Secretary of Defense for Policy..........................     7

                                APPENDIX

Prepared Statements:

    Flournoy, Hon. Michele, joint with Hon. Eric S. Edelman......    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]


   NATIONAL DEFENSE PANEL ASSESSMENT OF THE 2014 QUADRENNIAL DEFENSE 
                                 REVIEW

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, December 2, 2014.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    Good morning, ladies and gentlemen.
    The committee meets to receive testimony on the National 
Defense Panel, the Quadrennial Defense Review.
    Joining us today are the Honorable Eric Edelman, Honorable 
Michele Flournoy. Both of these distinguished witnesses are NDP 
[National Defense Panel] panelists and both have served as 
Under Secretaries of Defense for Policy. The panel co-chairmen, 
Dr. William Perry and General John Abizaid, were unable to join 
us today, so we really appreciate Eric and Michele testifying 
on their behalf. And I just wanted to tell you thank you.
    This will be my last hearing, and I want to thank you for 
your many, many years of service and your devotion to our great 
Nation. You have done yeoman's work, and thank you for being 
here today.
    The NDP has produced an excellent report, and I encourage 
all of my colleagues and the American public to read it. It is 
not insignificant that the report is a consensus, bipartisan 
product. For those that advocate for a smaller military and 
U.S. policy of retrenchment, the panel provides a persuasive 
reminder that our military hard power and our resolve to use 
that power, remains central to an effective foreign policy, and 
it reminds us that a strong military underpins all other tools, 
from diplomatic to economic, that our Nation has for global 
influence. However, this strength is in jeopardy. U.S. military 
superiority is no longer a given. More continues to be demanded 
of our Armed Forces, yet their size and their resources are 
declining.
    The panel assessed that massive defense cuts are putting 
our military at high risk in the near term and on a path to a 
hollow force. I just want to remind everybody that it was just 
a few months ago that Admiral Winnefeld, in--sitting where you 
are sitting today, said that if sequestration comes back into 
effect, and we reminded him it is the law, it just took a 2-
year hiatus, but it is in full effect, but he said if it comes 
back into effect, that it will not hollow out our force, it 
will break the force. That is really, really serious and I 
think we really need to be serious about what we are doing 
here.
    The challenge before us is how to leverage the panel's work 
to build a broader consensus for reversing the cuts to defense 
and the damage that has been done to our national security and 
standing in the world.
    During my tenure as chairman, I have held numerous hearings 
on the consequences of sequestration. There is no higher 
priority for our military than ensuring they have the resources 
to go in fully ready and equipped for the missions that they 
are asked to do. We must address sequestration.
    While this challenge will transition to my successor, and 
by the way, Mr. Thornberry has been voted on by our conference 
and will be the chairman of the committee going forward in the 
next few Congresses, rest assured that I will remain a loud and 
active voice for a capable, ready Armed Forces.
    I won't be in Congress, but I am not leaving the fight. I 
will also remain a tireless advocate for our men and women in 
uniform. Serving as chairman of this committee has been the 
great honor of my career. I have learned a tremendous amount 
about our military and the sacrifices that so many men and 
women in uniform make to keep our country safe. I have been 
humbled by the many soldiers, sailors, airmen, and marines whom 
I have met over the years.
    I am thankful for the support of Adam Smith. We have had a 
great partnership now for 6 years? Almost 6 years. I am 
thankful for his support, and it's not that he says--every time 
I suggest something, he hasn't always said, that is a wonderful 
idea, Mr. Chairman, but he has always been honest and expressed 
his opinions, and once the votes have been counted, he has 
supported the committee on everything.
    And there are times, you know, when we get on the ``Big 
Four,'' he expresses his opinion, but he also strongly supports 
the position that the committee has taken. And I commend you, 
Adam, for your integrity and for the--your intelligence, for 
the ability you bring to this committee.
    I want to thank all of my colleagues on both sides of the 
aisle. I am appreciative of the association that we have had. 
It has been a--it has been a great experience for me.
    I want to thank our staff. They have done yeoman's work. We 
will be filing a bill later today, and they have done--done 
great, great work to get us to this point.
    I want to thank especially our subcommittee chairs and our 
ranking members for the work that they have done to get us to 
this point.
    And last but not least, I want to thank my vice chairman, 
the incoming chairman of the committee. And they gave me two 
gavels. I can give one to him and I can hold one for a couple 
more days. So I will give him the newer one.
    Mr. Thornberry. Thank you.
    The Chairman. And the nice note that you sent me the other 
day, I really appreciate that. Thank you very much.
    It has been a real, a real honor to work with you these 
last several years. Twenty, I think, we have been sitting next 
to each other on this committee. So thank you all very much.
    The Chairman. And with that, Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    Well, first of all, I want to thank you for the great 
working relationship we have had during your time as chairman. 
This committee prides itself on being bipartisan and being 
focused on the work that we all know is so important that we 
get done.
    And as you said, it is not that we don't have differences, 
we do, any legislative body would, but I think--well, it's 
getting to the point where it is truly unique in this Congress 
to have a body that works the way our committee does. Which is, 
we understand we have to get a product done, so we will 
disagree, we will move forward, we will compromise, but at the 
end of the day, we will--you know, we will get the job done and 
do our job as a committee.
    And I think your leadership has helped make that possible. 
You have followed right along in a long line of excellent 
chairmen who we see on the walls around us who all understood 
that that was the priority, work in a bipartisan way to get the 
job done. And it has been a great working relationship, and I 
will miss you.
    I will be very happy to have Mr. Thornberry take your seat. 
It has been great working with you and I appreciate your 
tremendous leadership and all the work you have done for this 
committee. So thank you, and thank you for your kind words as 
well.
    And I thank our panelists, Ms. Flournoy and Mr. Edelman, 
from the National Defense Panel. This is and has been for a 
number of years now a very difficult time in national security 
and defense policy. We have difficult choices to make, and I 
think the one thing that we have gotten very, very good at over 
the course of the last three and a half years is trying to 
figure out ways to not make them and to wait as long as is 
humanly possible. I don't think that is good strategy.
    Obviously we understand the challenges of the Budget 
Control Act and we understand the challenges of the--I am 
sorry. I had hip surgery recently, so leaning forward is not a 
good thing. I will try to talk loud enough for the microphone 
to pick me up.
    Sequestration obviously would have a devastating impact on 
the defense budget and on the discretionary budget in general, 
but even absent sequestration, if you go back 4 years and look 
at what we were projecting to spend on defense over the course 
of the next decade, there is--we are not going to even come 
close to that.
    So all these plans, all these projects we had for the size 
of the force, for the equipment we were going to build, for the 
missions we were going to be ready for, it all has to change, 
because we are not going to have the money we thought we were 
going to have. Unfortunately, time and time again we have 
avoided making those decisions.
    So first of all, yes, sequestration needs to go away. 
Personally I would vote to eliminate it tomorrow and be done 
with it. When you go back to 2011 when the Budget Control Act 
was passed and you look at what the projected deficit was 
supposed to be for this year, we have achieved more savings 
than the Budget Control Act called for just through the natural 
flow of the economy, primarily, so, you know, we are in a 
better position budget deficit-wise than we thought we were 
going to be in with the Budget Control Act.
    So I would be in favor of simply getting rid of it. The 
impact that it is having on the discretionary budget, and 
again, not just defense, I think is very, very negative for 
this country; but more than that, we need to look out at least 
5 years and come up with a plan, a realistic plan within the 
budget that is coming at us.
    Now, the Pentagon has sent over a long list of ideas for 
how they would like to start saving money starting this year 
and then really picking up speed in 2016, and we have rejected 
them all. There is no BRAC [Base Closure and Realignment], the 
reductions in things like the A-10 and the cruisers and 
amphibious ships that we wanted to set aside, the cuts in 
personnel costs have been rejected writ large by this body, and 
what that does is that has a devastating impact on readiness, 
because the Pentagon is not able to make the changes they would 
like to make, they have got to cut at the place of last resort, 
which is train less, don't repair equipment that needs to be 
repaired, buy less fuel, buy less ammunition for training and 
so what we wind up with is a force that is not trained for the 
mission that we are asking it to do.
    So--and I know you know this, we have had this conversation 
before with both of you, but, you know, I would be interested 
in your vision for, you know, what does that look like? Next 5 
years, what decisions should we make in order to start saving 
the money we need to save instead of what I think the 
congressional position has been, which is let's just close our 
eyes and hope really strongly that the money appears.
    Not going to appear. We have to start making decisions. And 
if the decisions the Pentagon laid out, you know, on the Guard 
and Reserve changes, on getting rid of the A-10 and on and on, 
if those aren't the decisions that this committee would like to 
make, well, great, tell us what are, give us the alternatives 
in terms of cutting spending so that we can have a budget that 
makes sense and so that we can protect readiness.
    So a very important subject. I look forward to the 
conversation. Again, I thank the chairman for his leadership. 
It has been great serving with you, Buck. I yield back.
    Mr. Thornberry. Mr. Chairman, I ask unanimous consent for 
about 2 minutes.
    The Chairman. To defend yourself.
    Mr. Thornberry. To defend myself, yes, sir.
    And I just want to say, Mr. Chairman, that I think it is 
particularly appropriate to have these witnesses and this topic 
as your last hearing, because they, I think, encapsulize the 
challenging security environment which you have had to deal 
under your leadership.
    But I think I can speak for all members on both sides of 
the aisle of this committee, when I say we appreciate not only 
the substantive contributions you have made to the country's 
security in your leadership, but also the way in which you have 
exercised leadership. Your cheerful countenance and your 
fairness to all members, even when there were disagreements, is 
something that all of us can learn from.
    So we will all have more of a chance to talk about your 
leadership when the bill is on the floor, but I just want to 
take this moment as your last hearing in the committee, where 
many--where most of us have spent so many hours over the past 
several years, to say thank you for your leadership and the 
example you have set, it is something that we can all learn 
from, and we look forward to your continuing strong voice on 
these issues.
    I yield back.
    The Chairman. My funeral is going to be anti-climactic.
    I would like to recognize our former colleague, Jim 
Marshall. It is good to have you here with us today, Jim. We 
really enjoyed serving with you over the years, and it is good 
to have you--have you here today.
    Now let's turn to our panelists. Who is starting? Mr. 
Edelman.

 STATEMENT OF HON. ERIC S. EDELMAN, PANELIST, NATIONAL DEFENSE 
      PANEL, FORMER UNDER SECRETARY OF DEFENSE FOR POLICY

    Mr. Edelman. Mr. Chairman, at the risk of over-egging the 
omelet here, let me add my voice to those who have already 
thanked you for your service to this committee and to the 
Nation. As someone who has had the chance to work with you, I 
have, you know, watched this from the perspective outside the 
Congress, and I agree with all of the things that your 
colleagues have said about your leadership.
    In particular, I would like to thank you for the confidence 
you have reposed in me twice by asking me to serve on the 
Independent Defense Panel to review the QDR [Quadrennial 
Defense Review] 4 years ago and then the National Defense Panel 
this time. So thank you very much for that.
    And I am glad you recognized our colleague on the panel and 
your former colleague on this committee, Jim Marshall. And I 
hope Jim will feel free to add his voice to whatever Michele 
and I have to say, because he was a very, very active and 
important part of the panel's deliberations.
    We benefited, I think, on this panel from enormously good 
leadership from Secretary Perry and General Abizaid, who 
unfortunately, as you noted, could not be here today. They in 
turn asked Secretary Flournoy and me to take charge of the 
drafting of this report, pulling it all together for the 
members of the panel, but we had a lot of help, notably from 
Jim Marshall and Senator Talent, but also from the staff at our 
institutional home at the U.S. Institute of Peace, and I would 
like to recognize them.
    Some of them are here today, too. Paul Hughes, who was our 
executive director; Tom Bowditch, who was the chief writer and 
made our prose all that much better; Hannah Burch, Troy Stoner, 
and there are others who may be here that I didn't notice, and 
I apologize in advance if I have skipped anyone.
    We had an opportunity as a panel to spend a bit of time, 
because the legislation this time enabled us to begin our work 
before the QDR was actually even written, and so we spent quite 
a bit of time working with the Department, with Secretary 
Hagel, and trying to understand how the Department was meeting 
the challenges it faces from an extremely complex and volatile 
international security environment as well as the budgetary 
difficulties that Mr. Smith and you, Mr. Chairman, have already 
described.
    I think it was our sense from the outset that what our 
chairman--co-chairman, General Abizaid, suggested in our first 
meeting, that the Nation was facing what he called accumulating 
strategic risk, was getting worse as we continued our 
deliberations. We began before Russia had invaded and annexed 
Crimea and destabilized eastern Ukraine. We began our 
deliberations before the Iraqi army collapsed and we faced the 
beginnings of a terrorist state in Syria and Iraq.
    So all of these things, I think, weighed on our 
deliberations, as well as the difficulty that we understood our 
colleagues in the Department of Defense were facing because of 
the budget uncertainties with which they had to contend because 
of the Budget Control Act. It is extremely difficult to have a 
strategy and to execute it when you have no idea what budget 
you are actually going to be dealing with, and when you have to 
face the prospect of not only taking cuts, but having no 
flexibility in the manner in which you distribute those cuts.
    So our conclusions, which Secretary Flournoy and I tried to 
encapsulate in an op-ed that we wrote for The Washington Post 
shortly after the report was issued, suggested, among other 
things, that, number one, this was a very important strategic 
misstep, that is, sequestration of the defense budget for the 
United States, that needed to be reversed.
    Second, that given the various challenges we saw around the 
world, given the high use rates of our force over the last 
decade fighting two wars, that it made sense to return to the 
budget that was proposed by Secretary Gates in fiscal year 
2012, the last time the Department had been able to actually do 
a strategy-driven budget rather than a budget-driven strategy. 
And in that regard, we called for return to that top line, but 
we also had other recommendations, I know Secretary Flournoy 
will want to talk about some of them that addressed the issues 
that Mr. Smith raised about giving the Department of Defense 
the flexibility and the tools to manage itself both in the 
current environment and into the future.
    We also discussed the force planning and force sizing 
construct that the Department was using, and suggested a 
variation because of the incredible challenges that we saw 
developing.
    And, in short, we produced a report which we hope will be 
useful to all of you members of the committee and to your 
colleagues in the Congress as they think about the national 
security challenges that we face.
    We hope the report will continue to inform discussion about 
defense strategy. We hope that candidates in the 2016 cycle for 
President will be asked their views of our recommendations, and 
in that sense, we hope that what you charged us to do will 
continue on as a kind of living document.
    Let me stop there and turn the floor over to my colleague.
    [The joint prepared statement of Mr. Edelman and Ms. 
Flournoy can be found in the Appendix on page 43.]

STATEMENT OF HON. MICHELE FLOURNOY, PANELIST, NATIONAL DEFENSE 
      PANEL, FORMER UNDER SECRETARY OF DEFENSE FOR POLICY

    Ms. Flournoy. If I may, Mr. Chairman, let me just begin by 
wishing you fair winds and following seas as you depart, and 
thanking you for your leadership as chairman of this committee.
    I just wanted to underscore a few of the bottom lines of 
the National Defense Panel report. The first is our assessment 
of the security environment, that we do face a very complex, 
volatile situation today with everything from ISIL [Islamic 
State of Iraq and the Levant], to Russian resurgence, to the 
rise of new powers in Asia-Pacific that challenge the 
international order, and so forth.
    Our assessment is that, that environment is going to become 
even more daunting over time, and so we need to be exerting 
U.S. leadership and we need a robust military to ensure that we 
can try to deter conflict, reassure allies, shape the 
environment and, when necessary, defeat aggression.
    In that context, sequestration, in our view, has become a 
national security issue. I would personally go so far as--this 
goes a little bit beyond where the report is, but I would call 
it a threat to national security.
    Because the inflexibility of sequestration combined with 
the BCA levels, the Budget Control Act levels, means that the 
Department of Defense does not have either the funding or the 
flexibility to be able to field the military that we need to 
protect and advance this nation's interests now and in the 
future, and so we argue in the report for lifting sequestration 
and lifting the levels of defense spending as a matter of 
national security.
    We also argue for a very aggressive approach to reform, and 
that includes giving whoever the next Secretary is, the kinds 
of authorities that previous Secretaries were given to manage 
periods of challenge and drawdown. When Bill Perry had to 
manage the post-Cold War drawdown, he was given the authority 
for base realignment and closure.
    Today we have 24 percent excess infrastructure that is 
draining money away from readiness, modernization, and other 
priorities. Perry was given RIF, reduction in force, authority 
to be able to reshape his civilian workforce, rightsize that 
force for the future. He was given meaningful levels of 
voluntary separation incentive pay so that he could affect the 
calculus of those contemplating early retirement. Those levels 
have not changed since the 1990s.
    We also need compensation reform. And this is not about 
taking benefits away. It is about providing better health care 
at lower cost, which is quite possible if the Department of 
Defense were to adopt best practices from the private sector. 
It is about keeping faith with all who serve, not just those 
who make it to 20 years. So there is a lot of room for reform, 
and that reform is also critical to ensuring that our taxpayer 
dollars go to the right priorities in defense.
    A third key priority was addressing the growing readiness 
problem. We are already at a place where should some unforeseen 
contingency occur, we would not be as ready as we need to be, 
and that lack of readiness, meaning people who are trained, 
units that are fully manned, equipped, and so forth, could 
translate into slower response times and ultimately greater 
risk, greater casualties. That is not acceptable. That is not a 
responsible position. That needs to be addressed immediately.
    Modernization. Each of the services has had to gouge their 
modernization plans, upsetting investment, programs, timelines, 
and the truth is at some point we are going to have to pay more 
to make those programs well and to invest in the future. It is 
very critical that we invest now in the research and 
development, the prototyping and the procurement that we are 
going to need for several Presidents on, you know, to be where 
we need to be in 20 years time or more, as some of the 
challenges we face increase.
    And lastly, we are cutting force structure below where the 
strategy requires. When you look at the Air Force, 188 
squadrons coming out of the Cold War down to 47 planned. One 
look at the strategy and ask ourselves, is that enough to 
support what the strategy says? The Navy coming down to under 
300 ships and so forth.
    So, you know, I would say that we are now, and even more 
into the future, at--you know, we are not keeping faith with 
the force in terms of giving them the readiness, the equipment, 
the support, the capacity, and the capability they need now and 
in a more daunting future. And I don't think that this Congress 
has fully taken on the responsibility to look that reality in 
the face and do something about it.
    So I would just challenge you all to challenge your 
colleagues to--because I know the people in this committee 
understand this, but this has got to be addressed. We can't 
wait 2 years, we can't wait 5 years, we certainly can't let 
sequestration run for the full 10 years and then try to fix it. 
The risk is too high.
    [The joint prepared statement of Ms. Flournoy and Mr. 
Edelman can be found in the Appendix on page 43.]
    The Chairman. Thank you very much.
    Very, very important issues that you covered. And the last 
point that you made about this committee understands, we have 
the benefit of the hearings and hearing what is going on.
    The way the Congress is set up, everybody is busy and 
people on other committees are busy studying those issues and 
they can't be totally up to date on all of the things that face 
our committee. So it is up to us really to educate them and our 
leadership, because I guess we just kind of take for granted 
that everybody knows the same things, and they--and they really 
don't.
    I had a Member come up to me after I was talking about some 
cuts not too long ago, and he said, I didn't realize we had cut 
that much. So it is an important thing for us to do. And I know 
we have made attempts, we have tried to involve other Members, 
invite them, Members not on the committee, into some things, 
but it is something we will have to just keep working at, work 
harder at, I guess.
    The QDR is intended to provide a force-sizing product that 
describes how the Pentagon will shape and size the military to 
meet future challenges. Starting with the 1993 Bottom-Up 
Review, the Department of Defense adopted a two-war planning 
construct, requiring that our military be sized to fight two 
major regional conflicts that occurred nearly simultaneously.
    This has been largely maintained through successive QDRs. 
It is interesting, we are probably much closer to needing that 
now than we did in 1993; however, the 2014 QDR appears to 
diverge from this two-war construct by suggesting that the 
United States will no longer be able to defeat two aggressors 
simultaneously. The NDP, on the other hand, recommends a 
stronger and more explicit force-sizing construct.
    In your opinion, what is driving such a policy change in 
the QDR and why does the panel recommend a different force-
sizing construct?
    Ms. Flournoy. So I think that my understanding of the QDR 
construct is that it is really looking at one multi-phase 
campaign that would include, you know, a full scale not only a 
defeat of aggression, but a post-construct reconstruction type 
of campaign, so soup to nuts, if you will.
    And that the second is seen as more of a defeat and roll 
back aggression, but not necessarily an occupation. And I think 
part of that is informed by the scenarios that we see around 
the world, and I think part of it is informed by the resource 
constraints that are there.
    When we looked at this from a strategy perspective in the 
NDP, you know, we saw a situation that even when the U.S. was 
fully engaged in one major regional conflict, because we are a 
global power with global interests, we have got to be able to 
deter and, if necessary, roll back or defeat aggression in 
multiple other areas at the same time if necessary while 
maintaining homeland security and critical operations globally 
like counterterrorism.
    So we defined a somewhat higher bar based on our assessment 
of the security environment and our projection, our 
understanding of what the future is likely to look like.
    Mr. Edelman. I would only add, Mr. Chairman, that we had in 
mind that we could easily find ourselves in a situation--given 
the uncertainties in northern Africa, the spread of terrorist 
groups in the Trans Sahel, the uncertainties in the Levant 
because of ISIL, continued problems in the Persian Gulf with 
Iran, North Korea, et cetera--that we could be involved in a 
major conflict, but then have multiple different conflicts to 
either deter or have to engage military force with in 
overlapping both geographic and temporal frames, and I think 
that is why we felt we wanted to be explicit about that and 
actually in the report urged that the Department go back and 
see what it would take to actually execute that somewhat more 
stressful force-sizing construct.
    The Chairman. Thank you.
    Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I certainly want to echo Mr. Smith's acknowledgement, 
Mr. McKeon, of your great leadership on the committee, and also 
welcome Mr. Thornberry, of course, and join in here with Mr. 
Smith as well as thanking you all for being here today.
    Secretary Flournoy, in your statement, you mentioned the 
need to not only provide relief to the Pentagon from recent 
budget cuts, but to remove the limitations on their ability to 
make judicious cuts where they are most needed, and you spoke 
specifically about the, quote, ``modest cuts to the rate of 
growth and already generous military compensation and 
benefits'' unquote. And we certainly know that this is a very 
tough issue. It is why people don't really like serving on the 
personnel committee, frankly, because it is very hard, and, in 
fact, the committee rejected the areas of cuts to at least look 
at in this last year, and hopefully moving forward, we can at 
least begin to acknowledge those and move forward.
    So, I wonder if you could elaborate more. You mentioned one 
or two, I think, in the cost of health care, but could you 
elaborate on the specific programs that you feel could endure 
such reductions?
    Ms. Flournoy. Well, I start from the premise that, you 
know, we absolutely need to keep faith with those who serve, 
given their service and their sacrifice, but we need to 
define--we need to really examine what do we mean by keeping 
faith.
    Keeping faith certainly means making good on whatever 
contractual promises we made with regard to compensation and 
benefits. So, I think as we talk about reform, we need to start 
with the premise that we are grandfathering in any, you know, 
contractual obligations that have already been made.
    But we also need to define it more broadly. I mean, keeping 
faith also includes ensuring that when people go into harm's 
way, they have the training they need, they have had the flying 
hours they need, they have had the tank drive miles they need, 
they have the equipment they need, they have got--they are 
manned, fully manned as a unit, they--you know, they have got 
all that support. So it is not just about compensation.
    But I think the--you know, the most important areas for 
reform, as I said, base realignment and closure. We are--we 
have, as much as I know there have been challenges with past 
rounds, GAO [Government Accountability Office] report is--
reports have been categorical that we are saving billions of 
dollars based on previous rounds of BRAC. We have too much 
infrastructure. We need to be able to downsize some of that. I 
know that is a very difficult issue politically, but we are at 
a point where I think we are at a level of risk that we have 
got to look at that.
    Being able to rightsize the workforce, both civilian and 
government workforce, the contractor workforce as well as the 
military, we have got to have the authorities for that.
    Mrs. Davis. Do you think that----
    Ms. Flournoy. And then on compensation--I am sorry.
    Mrs. Davis. Yeah. If I could just jump in for a second, 
because I think sometimes we talk about where we could perhaps 
make some of those change, but we don't know where we gain, you 
know, where the shifts are and whether or not it is in 
cybersecurity or whatever areas it is that really we need to 
make those cuts, and I think perhaps getting some help with 
trying to frame that in that way.
    Ms. Flournoy. Right. So I think that--those savings, and I 
would add compensation reform and, you know, better quality 
health care, reduce costs, more equitable and modern approach 
to retirement benefits and so forth, but, you know, to me the, 
you know, the investment needs to shift into bringing readiness 
up to the appropriate levels, protecting the most important 
modernization and investment programs for the future, ensuring 
that we don't cut force structure below the levels that 
strategy requires.
    So, I mean, I think the investment areas in general are 
obvious. I think there is, you know, lots to be discussed 
within each of those areas, particularly modernization, but 
really we are currently spending billions of dollars in areas 
where we shouldn't be, and the Department needs the flexibility 
to move those into the priority areas where we really need to 
buy down risk.
    Mrs. Davis. Thank you.
    If I could just quickly, building partner capacity is also 
something that you mentioned and is part of what we--what we 
try to do, although, quite frankly, I think the public is maybe 
not as sympathetic often to that. How, again, can we frame that 
better? Do you see that as really a critical area and one that 
needs more funding in order to make it work the way that it 
should?
    Ms. Flournoy. I personally believe that building partner 
capacity is very--a very important element of strategy. It is 
something we highlight in the report as well.
    When you look, for example, at counterterrorism, for a 
sustainable outcome in a place like Yemen, in a place like 
Iraq, in a place like Somalia, you have got to be able to leave 
behind a force that can contend with the local challenges, the 
local insurgencies, in order to have an outcome of some 
stability that lasts.
    So it is critical to actually achieving our objectives in 
many, many places, in addition to a more equitable approach to 
burden sharing.
    Mrs. Davis. Thank you.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you.
    And like everyone else, I want to thank you for your 
leadership. You issued a clarion call to repeal sequestration 
before it was popular to do so, and you have made a difference, 
you will continue to make a difference.
    I know Mac will do a great job, too. You leave an 
individual who has got 20 years of experience and wisdom as he 
takes over this committee, but I also want to mention someone 
else, who is not here today, and that is Mike McIntyre, who 
will also be retiring. And Mike has had almost as long in terms 
of his service to this committee, done a great job, and 
certainly been a very, very capable ranking member of our 
subcommittee. We are going to all miss him very much, too.
    And to both of you, I want to thank you. Each of you have 
been giants, champions, experts, whatever you want to say, in 
your own field and defense, but what has impressed me so much 
in the last year or so is how you have pulled that talent 
together with one voice, and I think you have made a geometric 
difference by being able to write and talk together on those 
things, and we just thank you both for that expertise.
    When we talk about giving the Pentagon more discretion, one 
of the reasons we are reluctant to do that is we don't think 
the Pentagon is always making the Pentagon's decisions. 
Oftentimes we feel here, we don't have a comfort level, we 
think the White House is making too many of those decisions, 
and I think to the degree we see the Pentagon making more of 
those decisions, I think we will be freer to give them more of 
that discretion.
    But I have two questions for you, pick either one or none 
to answer, but the first one is based on Secretary Hagel's 
recent speech about innovation and offset strategies, how do 
you see that tying in to the work of the panel, one?
    And then secondly, it seems like we do defense planning 
backwards. We always spend time talking about the dollars we 
want to spend for defense spending, then we develop our 
strategy, and then we look at how we implement that strategy. 
There is almost never a time when we come to policymakers and 
say, here is what we want to accomplish, in non-chokepoints in 
the world, for example on shipping, which one do you want to 
give up, you know? And then from there develop a strategy and 
say this is what it is going to cost.
    And over and over again we get into discussions about how 
much a toilet seat costs at the Pentagon, but nobody talks 
about, you know, how many ships we can have, where we can have 
them around the globe. How can we do a better job of painting 
that picture, of what we give up, to policymakers? So either 
one of those two questions, and either or both of you feel free 
to grapple with it.
    Mr. Edelman. Mr. Forbes, well, thank you very much for the 
question on the offset strategy, because I think both Secretary 
Flournoy and I were in California when Secretary Hagel publicly 
rolled out the offset strategy.
    In fact, we mentioned the earlier efforts at offset 
strategy under the leadership of Harold Brown and our co-
chairman, Bill Perry, in the report. And at Secretary Hagel's 
invitation, we outlined in the report a number of areas for 
future investment where we think it will be important for the 
Department to invest, to have capabilities 20 years from now 
that the Nation will need.
    One of the things I think we were quite focused on as a 
panel was the statements that Secretary Hagel has made about 
the potential that the U.S. will lose its qualitative military 
edge, which has been a key to everything that we have done 
since the end of the Cold War.
    So in that sense, although it came obviously after the work 
of our panel, I think--I don't want to speak for the other 
members, but I can certainly say personally, I think that the 
offset strategy is in keeping with much of what is in the 
report. I think it is absolutely necessary. I applaud Secretary 
Work for having launched this and Secretary Hagel for having 
endorsed it, and I would only add one thing.
    I think there is going to be a hearing this afternoon on 
the offset strategy. My CSBA [Center for Strategic and 
Budgetary Assessments] colleague, Bob Martinage, is going to be 
testifying there, he has done a recent report on this, and one 
of the things he points out, and I think it is important to 
bear in mind, is that the offset strategy in the 1970s was 
absolutely crucial in helping develop some of the technologies 
that became hugely important to our defense force in the 1980s 
and on into the 1990s and, in fact, right up to the current 
day, but unless those--unless those technologies and 
capabilities are funded, you know, you don't get the absolute 
benefit.
    So by all means, we need to develop the, you know, ability 
to kind of offset other people's advantages with areas where we 
can bring something to the table that can counteract that or 
put stress on a potential adversary in an area where they are 
weak, but I don't think it can be a substitute for, for 
instance, relief in the top line that we advocate in the 
report.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    For both of you, there are some comments that critics would 
say that you failed to address the role or issues of Guard and 
Reserve as you are looking at readiness or looking at Active 
Duty numbers versus Guard and Reserve and how to utilize the 
Guard and Reserve. Can you both comment on that?
    Ms. Flournoy. I think that is a fair criticism. There is 
only so much we were able to cover in the time we had in the 
report, but I agree that rethinking our concept of how--of the 
total force and how we integrate Active, Reserve and Guard 
capabilities is critical to getting it right in the future. I 
don't know that there is a one-size-fits-all, I think different 
models may work well for different services, but I don't 
believe that the work has been done--the work that needs to be 
done has been done yet to fully explore the opportunities.
    There is tremendous talent and experience to be leveraged 
in the Guard and Reserve, it is an invaluable set of resources 
for us, but we have got to have a compelling concept for how we 
are going to do that in the future, and that may not look like 
the last 12 years when we were trying to sustain a rotation 
base for two large, long counterinsurgencies. And so I do think 
this is a very ripe area.
    I think the services need help and top cover from both the 
civilian leadership in the Pentagon and, frankly, civilian 
leadership in Congress to get this right, because, you know, 
obviously there are political challenges associated with making 
some of the necessary changes and trade-offs.
    Mr. Larsen. Thanks.
    Mr. Edelman, do you have a separate comment?
    Mr. Edelman. Well, the only thing I would add, I mean, I 
agree with Secretary Flournoy, I think it is a fair criticism, 
and as she said, there is, you know--given the time and given 
the small panel, we only had 10 members of this panel, you 
know, we couldn't attack everything.
    I would say one other thing, and it is related, I think, to 
the issue of how we think about the Guard and Reserve, and it 
is something we do talk about in the report and we talked about 
4 years ago in the Independent Panel report. Most of our 
planning, contingency planning and war planning, is based on 
the notion that we will fight only very, very short wars. That 
is a nice, convenient planning assumption, but I think, as most 
of us have learned, you know, once conflict starts, you don't 
know exactly what form it is going to take.
    And we have not really thought very much as a nation over 
the last 20 years about how we would mobilize and have a 
strategy of mobilization, which would of necessity involve the 
Guard and Reserve, to fight a prolonged conflict, and I do 
think it is something we need to give greater attention to and 
I think it is something that the committee should be focusing 
its attention on as well.
    Mr. Larsen. Could I ask a follow-up on that point, because 
there was also some concern about movement away in the QDR from 
a two-war construct. And that two-war construct is based on 
fighting two relatively short wars, and you trade that off for 
one really, really long one. It kind of makes sense to move 
away from a two-war strategy if you are going to be in a really 
long one. How would you comment on that?
    Ms. Flournoy. I think the--you know, the U.S. military, 
given our interests around the world, will always need to be 
able to defeat aggression in more than one place at a time. It 
is critical to our ability to reassure our allies and it is 
critical to deter our adversaries. If people think that once we 
are involved in one place heavily, game over, you know, then 
the--you know, the mischief can be made.
    That is inviting aggression in other areas, and it will 
also really create huge anxiety among our allies and 
potentially affect them to--you know, cause them to revise 
their own defense calculations, their own calculations with 
regard to things like nuclear weapons.
    So this is a really core principle that can come in a lot 
of different flavors, but the ability to defeat aggression more 
than one place at a time has got to be a cornerstone of any 
strategy going forward, in my view.
    Mr. Larsen. Mr. Edelman.
    Mr. Edelman. I agree with what Secretary Flournoy just 
said.
    Mr. Larsen. Okay. Thank you.
    Yield back.
    The Chairman. Thank you. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Ma'am, sir, thank you for being here and for your work. 
Congressman Marshall, thank you as well.
    I represent the eighth district in Georgia, and Moody Air 
Force Base and Robins Air Force Base are both in my district. 
And I want to talk with you a little bit about the 
recommendations for the Air Force and the number of planes we 
should have, but I first want to mention, going back to what 
Mr. Forbes said, I do believe that good leadership at the 
Pentagon is necessary to carry out any national security plan, 
and I do think that if we had leadership that was able to 
operate based on what was in the best interests of national 
security, I think you'd see much more support from this 
committee for that leeway that you have asked for than you 
have. And I just go back to Secretary Gates, Panetta, now 
Secretary Hagel. In the 4 years I have been here, we have had 
three different Secretaries of Defense. That is not good for 
the country. And it seems to me that the President is trying to 
micromanage national security instead of putting good people in 
place and letting them do their job.
    In 2021, mandatory spending in this country will be three 
and a half trillion dollars. The net interest on the national 
debt will be above $700 billion and spending on national 
security, including OCO [Overseas Contingency Operations], will 
be below $700 billion. And so when we talk about loosening up 
on the restrictions and the reductions of weapon systems, that 
is where our concern comes in under this President, is using 
the DOD [Department of Defense], if you will, as a piggy bank 
to fund social programs.
    So the F-35 program as we push forward, certainly a system 
that I think most of us support, my fear is that it has the 
same thing happening to it that happened to the F-22, and while 
we stand down A-10s and other weapons systems that are 
currently available, we end up with an F-35 program where the 
buy gets cut in half or a third or 75 percent, and anyway, we 
don't have the number of planes that we had planned on for 
national security.
    Can you speak to the number of planes that we need, and if 
we continue to stand down the planes that are currently flying 
and we don't complete the F-35, the impact of that on national 
security?
    Mr. Edelman. We did consider the size of the Air Force. And 
I think it is fair to say, I don't want to air dirty linen of 
the--of the panel in front of--in front of the members, but 
there were some differences about the specific numbers that 
might be needed, and as a result, we just agreed that the Air 
Force needs to be considerably larger than it is today and is 
foreseen to be in the future.
    I think unfortunately, Mr. Scott, the reality is that the 
F-35 buy almost certainly will end up being cut. I think 
historically we have all--it is not just the F-22. I think 
historically we have never bought as many aircraft as we 
initially intended. There are a lot of, you know, complicated 
reasons for that; one of them has to do with escalating costs, 
and it is one reason why we recommended, you know, some things 
in this report, as we did 4 years ago, about procurement 
reform, because that, I think, is a big part, you know, of the 
answer.
    But we were very focused on the force structure issues with 
regard to the Navy and the Air Force, because as part of the 
strategy that the QDR was meant to implement, the likely, most 
likely conflicts are going to be ones that are going to be 
heavily engaging naval and air power.
    So we looked at those and we tried to come up with some 
gross order of magnitude parameters to help you and your 
colleagues with. And so for the size of the Navy, for instance, 
which I think Secretary Flournoy mentioned a couple of minutes 
ago, we said the range should be somewhere between what 
Secretary Gates's fiscal year 2012 budget would have purchased 
and what was in the 1997 Bottom--you know, Bottom-Up Review 
force structure in that QDR, because that was in a period of 
time when the world was forecast to be even, you know, less 
troublesome than it is today.
    And we are way--headed to way below that in the Navy. The 
Air Force, as I said, our conclusion was, you know, it needs to 
be considerably larger, but we were not able to put specific 
numbers on it.
    Mr. Scott. Thank you. I am almost out of time.
    Ms. Flournoy. If I could----
    Mr. Scott. Yes, ma'am.
    Ms. Flournoy [continuing]. Congressman Scott, with--you 
know, with all due respect, I have a different diagnosis of 
what is going on. I don't think that--I have not seen evidence 
that the White House is micromanaging the DOD programming and 
budgeting process.
    What I have seen is that since 2011, that was the last time 
when you had a truly--fully coherent sort of strategy-driven 
program that was offered up as, you know, here is the DOD plan. 
Since then, we--DOD has been battling with, you know, two 
rounds of BCA cuts totaling a trillion dollars, sequestration 
that doesn't allow them any flexibility to move money between 
accounts, and a life of CRs [continuing resolutions].
    So you have this constant uncertainty, unpredictability 
that is causing the services in one case last year to do seven 
different versions of their POMs [Program Objectives 
Memorandums]. You know, they are just trying to survive the 
next budget bogie as opposed to doing the kind of strategic 
planning that you are calling for, but my--I think the reason 
for that is the BCA cuts and the sequestration more than it is 
any sort of outside interference, as far as I can see.
    Mr. Scott. Well, certainly I agree that the timeliness of 
Congress in not getting the job done is a problem for DOD. And 
I would again remind the administration and the Senate, this 
committee passed unanimously the National Defense Authorization 
Act months ago, and the Senate has yet to take----
    Ms. Flournoy. Yeah.
    Mr. Scott [continuing]. Action on that.
    Mr. Chairman, thank you.
    Mr. Coffman [presiding]. Ms. Hanabusa.
    Ms. Hanabusa. Thank you very much, Mr. Chairman.
    Secretary Flournoy, you know, the QDR has been said to be 
the force-sizing construct, and that is what we are supposed to 
be doing. I think one of the most troubling things about the 
QDR has always been that we just seem to--the document seems to 
just hedge on the fundamental issue of exactly what is the 
force-sizing construct.
    Mr. Larsen talked about the two-war or the two-theater 
assumptions that we have had since the Clinton administration, 
and then we seem to have hedged on that as well in the QDR, and 
we don't seem to answer the fundamental question, which is, 
what is the military to look like? What is it that we think we 
are going to be needed to do?
    So if we are in Asia-Pacific, the pivot to Asia-Pacific, 
which is hugely sea mass, and/or we are supposed to also be 
able to do at the same time the Middle East, which has a 
totally different situation, like your testimony in your op-ed 
piece talked about the fact that we didn't really look at ISIL 
at the time that this whole thing was being discussed.
    One of the things that I found disturbing is we didn't even 
begin to address the two-theater construct, that was the first 
thing, but the second thing is when we are so diverse, how, 
then, do we come up with a review to say what is the force 
structure to look like, when DOD isn't able to tell us where we 
are going to be and what is it that we can do, because it just 
seems to be so contrary to what the needs are? So if you could 
answer that.
    Ms. Flournoy. You know, my own view is that, you know, and 
this is based on a wonderful saying of Secretary Gates, which 
is, you know, we have a perfect record about predicting where 
we will fight in the future: you know, 100 percent wrong.
    Ms. Hanabusa. That is right.
    Ms. Flournoy. We have never gotten it right.
    Ms. Hanabusa. I remember him saying that.
    Ms. Flournoy. And I ascribe to that. So I think, you know, 
there is a lot that can be done in trying to anticipate 
different scenarios, test your planned force against those to 
see how--you know, where it would do well, where it would fall 
short, but ultimately you have to come up with a balanced force 
and a force that puts a premium on agility and the ability to 
adapt to something you didn't anticipate.
    When you take down readiness, you take down agility. When 
you take forces down to too small a level, you take down 
agility. When you don't invest in critical modernization, R&D 
[research and development] for the future, you reduce agility. 
And so I think that is--that is my, you know, biggest concern.
    But I think a robust discussion of the requirements, the 
scenarios, and the kind of force trade-offs that we need to 
make is exactly the strategic discussion we need to be having, 
but I would submit to you, you can't get there when under 
sequestration. You can't even get to that conversation.
    Ms. Hanabusa. Secretary, I agree with you. I think--and I 
voted against many things because of--sequestration continuing. 
Having said that, however, you know, I represent Hawaii, and 
we, of course, have a huge issue there of USARPAC, U.S. Army 
Pacific, and the downsizing because of the QDR and also because 
of what we look at, you know, what sequestration's going to do; 
however, underlying all of that is still the fundamental 
question of what is, for example, the role of Army or, more 
importantly, are we going to continue to fund, is Congress 
being asked to fund continually the three branches, or the four 
branches, whichever way you want to say it, in equal parts, and 
is that where--and, you know, it all comes down to what I think 
the fundamental purpose of the QDR was.
    So what is when we look back? And if the QDR doesn't then 
give us what we think 4 years that structure should look like, 
we are going to continue to expend based on what we are hearing 
and what literally all of our individual areas and needs are.
    Ms. Flournoy. I think that the Defense Strategic Guidance 
of 2012 laid out a pretty good strategic vision, and I think 
that most of the panel agreed with that.
    The QDR endorses that and basically says, you know, here is 
the force we would like to build to support that, and that is 
what undergirded the President's higher budget request, higher 
than sequestration and the BCA levels.
    But if sequestration continues, these are the cuts we are 
going to have to take. This is the way, you know, it will 
affect our ability to execute that strategy, and this is where 
we will take risks.
    You know, I think we thought that was--you know, they were 
in a box. They are being told, you know, ``Develop a strategy-
based plan. But, oh, by the way, you have got to also live with 
sequestration.'' And I think they tried to square it the best 
way they could.
    Ms. Hanabusa. Thank you, Mr. Chair. I yield back.
    Mr. Coffman. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Thank you all for being here today.
    Fifteen minutes is not going to allow me to ask all the 
things I want to talk about.
    But I do want to focus real quick--there wasn't a lot of 
mention about the National Guard in the QDR. Can you kind of in 
your--you know, very quickly, you know, discuss what you see as 
being the National Guard's role in the future. I know it has 
gone from a strategic Reserve to an operational Reserve. But 
what do you--what do you see it, in the homeland and operating 
aboard?
    Mr. Edelman. Well, we--you know, as we have said earlier in 
answer to Mr. Larsen's question, it is not something that we 
really considered at great length in the panel.
    I know that General Kearney, if he was here, would want to 
talk about this because he was very concerned about the balance 
between the Active and Reserve components and--and all of that.
    I can tell you my own view from--speaking personally, from 
the previous panel 4 years ago and the current panel, is that, 
you know, we are going to--you know, there are going to be 
certain homeland contingencies where DOD is going to play a lot 
larger role than people anticipate and the Guard will be part 
of that, certainly, very much a first line of defense.
    I mean, if there is a nuclear incident somewhere in the 
United States with a detonation or a dirty bomb, I mean, I just 
don't know how we are going to get through that without DOD, 
you know, being a very large part of the response.
    And I know there are concerns about, you know, Posse 
Comitatus and other--other issues. But I think one thing we 
know how to do in the Department of Defense is to arrange 
supporting and supported relationships.
    So I actually don't think that that is that much of a 
concern. But I do think the Guard is going to play a huge role 
in things like that in the future.
    Mr. Palazzo. After 13 years, I mean, of the Guard being 
side by side with our Active component in Iraq and Afghanistan, 
you know, it seems now that where sequestration is start--we 
are starting to feel it. You know, you have Active Army coming 
out and saying, ``Well, you know, the Guard really didn't do as 
much as, you know, we had said they had done.'' Because I think 
everybody is scrambling for their piece of the pie.
    And, you know, for many of us, we know that the Guard has 
been able to, you know, join with their Active components and 
not miss a step. And it is also--you know, it is a lot--and 
more inexpensive to maintain certain things, like the heavy 
brigades and the Guard, and the Apaches and the Guard.
    And when--you pull them up when you need them. And they 
have done a fantastic job. And I could think of a lot of other 
things that the Guard--we could surge them to the border and 
help secure our border. You know, we have talked about that in 
Homeland Security.
    But moving on real quick, you know, we have also talked 
about readiness. And I agree with Ms. Flournoy that, you know, 
we want to be well equipped, well trained, you know, well led. 
We expect our men and women in uniform to have it. The American 
people expect our men and women in uniform to be ready to do 
their mission and come back home safe and sound to their loved 
ones.
    But, you know, when you have this trust deficit--and it was 
mentioned by several different members, is that we don't 
necessarily know if the Pentagon is making the right decisions 
or some of these decisions are coming from the White House.
    And it is hard for me--when I look at a well-equipped, 
well-trained, and well-led tactical airlift squadron in my home 
State being picked up and moved with no cost justification, no 
strategic military value, it is very hard for me to accept 
everything that comes from our military leadership.
    And that is why I think, if we take certain steps such as, 
you know, the audibility of our forces, the acquisition reform 
that our new chairman is going to be working on, it will give 
us a lot more confidence in what is being presented to us.
    But that was just one--one example of a record-breaking 
tactical airlift squadron in Afghanistan being moved with no 
strategic or cost justification. And, you know, if we are 
talking about readiness and wanting to maintain that high level 
of readiness and to see that and with still today no 
justification, it is really--really hard to swallow.
    And, lastly--and I won't take up more of your time--is 
October 13, 2011, we had Secretary of Defense Leon Panetta here 
and we were talking about the future of the national defense 10 
years after 9/11.
    And I personally asked him, ``What would be the short-term 
cost for things such as termination costs on contracts? You 
have already committed to increased unit procurement costs if 
production quantities are reduced.'' And--and, you know, he--
and I am kind of paraphrasing. So if you want to, you know, go 
back and look.
    But in the end, he says, you know, ``I went through the 
BRAC process and I know that all the dollars that people looked 
at for, you know, huge savings in BRAC.''
    And, yet, when you--they didn't take into consideration the 
cleanup. They didn't take into consideration all the work that 
had to be done. They didn't take into consideration all the 
needs that had to be addressed. In many cases, it wound up 
costing a lot more. I don't want to repeat that mistake.
    I mean, that is the former Secretary of Defense sitting 
where you all are, telling us that BRAC was a mistake. And I 
understand there is reports showing a difference of opinion. 
But, you know, to many of us, again, we need to have that 
confidence renewed in our military leadership to make those 
tough decisions going forward.
    Ms. Flournoy. If I could just comment on the BRAC issue, 
with all due respect to my former boss, who I hugely admire, 
you know, I do think you have got to look--there were probably 
particular areas where we got the cost estimates wrong, 
particularly bases--particular bases where, you know, we didn't 
save as much as was expected.
    But I think the record is actually pretty clear on this, if 
you look at the series of GAO reports, the series of CBO 
[Congressional Budget Office] reports. These are, you know, 
congressionally, you know, empowered bodies to do analysis for 
you. The record is very clear on what the cumulative savings 
over time have been.
    So the question is not whether, but how, to design a BRAC 
to make sure that you get a strategically aligned result and 
actually some serious cost savings for the Department so that 
money can be reinvested in readiness, in modernization, in real 
capability.
    Mr. Edelman. Mr. Palazzo, just a couple of points.
    One--again, I won't speak for my colleague. She may have 
some observations of her own on this. But when I was Under 
Secretary and went out to Afghanistan and Iraq, I saw lots of 
deployed Guard and Reserve units, and I was astonished at how 
well they performed. So I--I think I agree with you on that.
    I think--I think my observation on the BRAC issue, as a 
member of the National Defense Panel, is that the Department 
has not done a very good job, frankly, of working with you all 
and telling their story very well and very effectively.
    I think it is fair to say that the last BRAC round, which 
went on when I was Under Secretary, although I am also happy to 
say that it was in the province of my colleague, the Under 
Secretary for Acquisitions, Technology and Logistics, that that 
real--that BRAC was really about realignment rather than 
closure. And so, as a result, I think there may have been some 
miscommunication about the savings that were going to be 
realized and anticipated, et cetera.
    And I think one has to look at the issue over the life of 
multiple BRAC rounds historically and not just focus on the 
last round. And I don't think the Department has done a very 
good job of that.
    To be fair to them, I think they need to be able to conduct 
the studies that would enable them to tell the story very 
effectively or more effectively than they have. So I think that 
is a--you know, an important aspect of this as well.
    And just one final observation: We have had a lot of 
discussion this morning in answer to Mrs. Davis's questions and 
several other members. I think Mr. Smith raised some of them as 
well.
    I think all the members of the panel support and endorse 
the reform agenda that was laid out, including dealing with 
issues like compensation reform. We hope the Maldon Commission 
will come in soon with its recommendations for you to consider, 
et cetera.
    But I also think it is fair to say that, even if we had 
wild success in implementing reform and we are able to reap all 
of the savings that everybody anticipates, I don't think it 
would still begin to touch the--the deficit we are facing in 
terms of the budget and funding the Department to be able to 
meet the challenges that it is facing right now.
    Mr. Coffman. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Thank you both for being here and for your work on this.
    My question really goes to the QDR process. There is no 
question about the fact that the challenges that we face today 
are vastly different than the ones that we have historically 
faced and, yet, it seems that the structures and the mechanisms 
for developing and implementing our national security policy 
remain largely unchanged.
    One particular concern that I have is the fact that cabinet 
agencies continue to be the principal organizational element in 
their prospective areas, but there is not a clear part of this 
process that brings them together in a way that they are nested 
with each other and that they are aligned in order to achieve 
the overall desired effect and specific objectives.
    I am wondering if you can speak to--give your thoughts on 
how we can modernize the QDR process, especially considering 
the fact that so much of our activities in different regions of 
the world that are undertaken by Department of Defense have 
very specific implications with efforts for--with State, for 
example, and the lines have become very much--a lot more gray.
    Mr. Edelman. Well, Mrs. Gabbard, I am not a fan of the QDR 
process. I mean--and I will only comment on the QDR over which 
I presided in 2006, and I will let Secretary Flournoy talk 
about her own experience. She has done it more often than I 
have.
    I think the reality is that the QDR process largely ends up 
the way it is currently structured, becoming an effort to 
provide a rationale for the force in being and the program of 
record, with a few minor adjustments.
    And that is because the way we do this bureaucratically is 
to get the--you know, the service programmers who are, you 
know, presiding over these programs in a room to put together 
this document.
    So I think--and we addressed it 4 years ago in the 
Independent Panel Report. We actually suggested that there 
might be some thought given to doing away with the QDR 
requirement.
    The problem I think that you have is that there is--I think 
Members of Congress rightly want to, first of all, make sure 
that there is some kind of strategic process going on inside 
the Department of Defense. I mean, I think that is fair enough.
    And in the instance of creating these panels, that they 
want a second opinion, I think that is fair enough, too. But I 
do think the current process is excessively bureaucratic and 
that--you know, my view is you don't get good strategy, you 
know, written by committees of that--of that size.
    I am also very sympathetic to your comment about the--you 
know, the whole-of-government kind of effort that is required 
in so much of what we do, yet it has really been traditionally 
only the Department of Defense that has this kind of big 
strategic exercise.
    Now, that did change under Secretary Clinton, who launched 
the QDDR [Quadrennial Diplomacy and Development Review]-- QDD--
the State Department's equivalent of the QDR. And that process 
produced, you know, a report a few years ago. I don't know what 
the status of that is now, but I think the problem is it is 
very, very difficult to do this across agency lines.
    I do know that there has been more of an effort to 
socialize the QDR with the Department of State and other 
agencies. I know we certainly did that in 2006. I suspect that 
Secretary Flournoy did as well in 2010. But I think your 
concerns are well taken. We still haven't figured out 
bureaucratically how to--how to do this.
    And I am not quite sure what the right answer is because 
I--you know, at one level, you could say, ``Well, this is 
really a task for the National Security Council because it is 
meant to integrate all instruments of national power on behalf 
of the President.''
    But I am not sure that is the right answer either, to be 
honest, because the danger there is that the--the bureaucratic 
imperatives of the Departments then could get lost a little 
bit, I think, in a process that was purely White House-driven.
    Ms. Flournoy. I would say I am a veteran of several QDRs 
and have the scars to prove it. But--and I agree with much of 
Ambassador Edelman's assessment.
    The best strategic process that I witnessed in two rounds 
of service was the development of the Defense Strategic 
Guidance. And that was the President sitting down with the 
Defense Department leadership--the Chairman, the Secretary, the 
service secretary, the service chiefs, the combatant commands--
for multiple sessions of multiple hours each and, really, as a 
leadership team, working through, ``What should our strategy 
be? What are the strategic trade-offs? What are the big areas 
where we are going to prioritize? And where are we going to 
accept and manage risk?''
    And then that--because that--that team worked it 
intensively, all of those stakeholders at the end of the day 
slapped the table. So when it came time to translate that 
strategy into a program and budget, that process went 
relatively smoothly.
    You could envision something like that at the principal's 
level on a more interagency basis, bringing in the Secretary of 
State or the Secretary of Treasury and Homeland Security, and 
so forth. But in all of my years of government, that was the 
closest thing that I saw to a successful strategic process, and 
it didn't look anything like a QDR.
    Mr. Coffman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    I appreciate you both being here today. It has been a very 
good conversation, I feel. And you are right when you say that 
people in this room, even those that aren't here that take 
these seats, they do--they get it. And that is the challenge 
that we face being on this committee.
    One question I had--and I just want your opinions on some 
of these things. If we were to increase our force structure 
personnel, in particular, would we need the infrastructure that 
we are not using now?
    You talked about the 24 percent. You know, so if we somehow 
cut out the 24 percent, but found ourselves increasing our 
military to levels that we feel it should be, would we need 
that back, do you think?
    Ms. Flournoy. I think that the question that--needs 
analysis. My impression is that there may be some things--some 
recommendations that would be changed on the margins, but a lot 
of this infrastructure has been sub--you know, underutilized 
for many, many years, even when we had a larger force.
    Dr. Wenstrup. So there is a potential that some of it would 
maybe need to be----
    Ms. Flournoy. I think it is worth analyzing.
    Dr. Wenstrup [continuing]. If we were to get----
    And one of the questions that I had I think you answered 
very well is, you know, if we went through all the reforms that 
you suggest within DOD, it still would not be enough to get 
there.
    So do we change, in your opinion, what we are spending on 
discretionary spending? Mandatory spending? You know, where do 
we reach for what we need?
    Ms. Flournoy. You know, again, I think that the reform 
piece is part of the solution because we have to be able to, 
you know, whether it is executive branch or the Members of 
Congress, look the American taxpayers in the eyes and say, 
``Look, you know, we are spending your dollars as well as we 
possibly can, as wisely as we possibly can.''
    Dr. Wenstrup. Lead by example.
    Ms. Flournoy. Right.
    So I think the Department has to go down the reform path. 
Our judgment, as a panel, was that would be necessary, but not 
sufficient, to get to the spending levels we need.
    And so I do think we need to lift sequestration on defense 
spending. I think, given the facts that Representative Smith 
laid out, the fact that we have achieved much of the BCA goals 
with regard to deficit reduction--I think we should look at 
lifting it, in general.
    What we really need is a comprehensive budget deal with all 
of the key elements on the table: entitlement reform, tax 
reform, and smart investment in what will drive the dynamism of 
the American economy in the future.
    That is what we really need, and that would be the best way 
to handle this challenge. Short of that, some sort of smaller 
deals that create relief for the Department in the near term I 
think would be very important.
    Dr. Wenstrup. And that is what I am thinking about, too. I 
mean, ideally, I would love to hear the American people 
screaming for regular order and that we pass budgets and 
appropriations and did all those things that would let things 
flow and give people some certainty as we look towards the 
future.
    But I am wondering, on a shorter term, what we could 
actually achieve. And if sequester was taken off of the 
military, I think that would obviously be one step in the right 
direction.
    The question comes in then where do we get the funds from--
--
    Ms. Flournoy. Yes.
    Dr. Wenstrup [continuing]. Which is the hardest part.
    Ms. Flournoy. One of the things I would say is, in some of 
these really challenging politically sensitive areas, to 
explore the idea of pilots or, you know, experiments, you know, 
allow us to try--you know, allow the Department, I should say, 
to try, you know, a change and see if, for example, you could 
get better quality of care at lower cost in part of health 
care.
    I mean, but, you know, if Congress feels it is too risky to 
kind of swallow across-the-board reform, let the Department try 
something and see if it works and then let it scale. But to 
just say, ``No. It is off the table because it is too high risk 
or it is too sensitive,'' I just--it is not a viable solution.
    Dr. Wenstrup. The other thing I would like to get your 
opinion on--and I see it, as a reservist. There is so many 
people today, young people in particular, that have real-time 
experience--real-time military experience.
    And this is--these are people that I think and many I know 
would still like to be in the Guard and Reserve, even if they 
are leaving Active Duty, or remain in the Guard and Reserve, 
and they have this real-time experience and we are letting them 
go.
    And so I am wondering your opinion on the level of Guard 
and Reserve that we have maintained when we have the unique 
opportunity for maybe the first time in our history to have 
such a large experienced Guard and Reserve.
    Mr. Edelman. You know, I think it is a good point. I think 
it goes back to this question of how do we think about 
mobilization and mobilizing all the resources that we have if 
we end up in a conflict that ends up being more than 30 days, 
which I think is likely to happen.
    And I don't think we have given nearly enough thought about 
it, as a nation. I think it is one of the things we are all 
concerned about on the panel.
    Ms. Flournoy. I do think that it is very important to think 
strategically about, you know, what skill sets do we want to 
maintain access to. One of the things that happens in drawdowns 
is we lose a lot of field-grade leadership.
    Keeping connections to some of those people, keeping them 
tied so that they could come back in, you know, use their 
experience again, that would be a very strategic approach to 
sizing parts of the Guard and Reserve.
    Similarly, cyber. You know, this is an area where 
tremendous civilian expertise and skill sets that need--you 
know, perhaps we could leverage by reaching out to certain 
communities in areas of, you know, expertise and having them 
affiliate via the Guard and Reserve as opposed to becoming--
expecting them to become Active Duty and so forth.
    So I think a more strategic approach to thinking about, you 
know, how do we want to leverage this incredible resource and 
size and shape it appropriately for the future.
    Dr. Wenstrup. Thank you very much.
    Thank you, Mr. Chairman, for allowing me to go over.
    Mr. Coffman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I was reading a statement by General Dunford just a couple 
of weeks ago, actually, where he said 50 percent of our units 
that are at a home station today are at a degraded state of 
readiness.
    And I was wondering what you thought of the general's 
statements and what you feel could be done to help our home 
stations, you know, be at a more prepared state of readiness. 
And I know one of the things that he did cite was sequester.
    Ms. Flournoy. Right.
    And I think that the situation that General Dunford 
described for the Marine Corps is true across all of the 
services.
    And what that means is that, if a major contingency 
happened, you know, a war on the Korean Peninsula, you know, 
Russian aggression against a NATO [North Atlantic Treaty 
Organization] ally, some major contingency, those are the units 
that would be called to go.
    And when--if those units are less than fully ready, that 
means that you are accepting risk in some form: slower 
response, less capable response or, you know, putting into 
harm's way--putting people into harm's way without the full--
all of the training and equipment that they need or 
undermanned.
    And so, you know, it is something that is not visible to 
the American people day to day, but it is something that today 
we are accepting risk if another major contingency were to 
surprise us. And so it is something that needs to be addressed.
    In the panel report, one of the priorities we state, one of 
the first things that we should do when we--after lifting 
sequestration is make the readiness accounts whole, put money 
back into readiness to raise--to ensure we have units that are 
on standby and fully ready for contingencies.
    Mr. Veasey. Is that the number? Do you think that 50 
percent is pretty accurate?
    Ms. Flournoy. I have heard--I have heard him say that. I 
have no reason to doubt that. You know, the evidence I have 
seen supports that. And I think, as I said, other service--the 
numbers in other services are similar.
    Mr. Veasey. Thank you.
    Thank you, Mr. Chairman.
    Mr. Coffman. Ms. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    And thank you--both of you for being here.
    You know, I sit as we listen to this and I listen--I agree 
so much with what you both are saying. I agree with the 
premise--a lot of the premise of the report.
    I do question, like my colleague just questioned--the whole 
concept of the QDR seems like a wish list, as we are coming 
into Christmas, saying, ``From a military perspective, here is 
what we need--here is what we would really love to have.''
    But back in the reality of where we are at and some of the 
tough decisions that haven't been made, you know, I look at 
this as--as kind of like arms flailing in the air, kind of 
swinging, kind of treading water.
    And my question is: For those people like me that grew up 
in a nation that ascribed to peace through strength and in a 
country now where we are sitting here listening to the best, 
brightest experts that we have saying that this is real threat 
to national security, this issue of sequestration--and I 
agree--how long--how far away are we? How many years will it 
take, given--if sequestration rolled off today?
    And I have heard so many answers to this, even in 
California, the defense summit, when the former SecDefs 
[Secretaries of Defense] talked about this. Readiness has been 
so affected. Trust has been so violated with our NATO allies. 
The global dominance of the United States obviously questioned 
by the activity with ISIL, Russia, and all the things that you 
just described earlier in this hearing.
    How many years away are we if we rolled sequestration back 
today till you, as the expert, could confidently say that we 
are leading from a strength--a position of strength and we are 
not just doing crisis management as things come up? How--where 
are we on that timeline?
    Ms. Flournoy. My own view is that I think lifting 
sequestration, increasing defense spending to a robust level, 
would send an immediate signal to both adversaries and allies 
that would have very important immediate effects.
    I think the actual recovery time of how long until you 
recover readiness, how long until you make modernization 
programs whole--I think a lot of that would depend on the level 
of funding and, you know, how it was allocated.
    So it is hard to estimate. But I can tell you the longer we 
stay under sequestration, the longer that recovery timeline 
will be.
    Mrs. Walorski. But when it comes--and I understand. I agree 
that an immediate withdrawal of sequestration would send a 
significant signal.
    But is it just--are we just sending a monetary signal to 
our allies, saying that--that, you know, if we had more 
funding, we could do X with our NATO allies?
    Because that would be mixed--there has--there seems to be 
mixed signals coming from the administration. It is not just a 
money issue.
    And the issue with, for example, just Ukraine and Crimea 
and Russia doesn't just seem to be the money issue of why are 
we sending blankets, not ammunition. There is greater 
implications there on where our strategies lie with trust with 
our allies. It can't just be finance, I would think.
    Mr. Edelman. Ms. Walorski, I think you need to think about 
the top line. I think I said this, actually, when Secretary 
Flournoy and I were on a panel together out at the Reagan 
Library when--with regard to allies.
    But, also, more broadly, you need to think about the top 
line in kind of two ways. I mean, the number, whatever it is--
the number, for instance, that was in the fiscal year 2012 
Gates budget represents what we buy with it as a Department of 
Defense and how we man, train, and equip the Armed Forces.
    But it is also a surrogate for national will, how much are 
we willing to tax ourselves as a nation in order to provide the 
kind of global public goods that we have traditionally provided 
and what I think a policy of peace, you know, from strength 
represents.
    And so I agree with Secretary Flournoy that a--you know, a 
signal like that would be read by both adversaries and allies 
very clearly. Then how you actually spend out the money, that 
takes a little bit longer until you decide what it is you are 
going to, you know, do.
    And I think both she and I agreed buying back readiness 
would be the first thing you would want to do, but that 
doesn't--you know, ultimately, while it is a surrogate for 
national will in terms of a signal, it doesn't substitute for 
the national will.
    Mrs. Walorski. Right.
    Mr. Edelman. And that has to be executed, you know, by the 
President of the United States, who is the Commander in Chief.
    Mrs. Walorski. Thank you, Mr. Chairman. I yield back.
    Mr. Coffman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And I want to thank our panel for the work you have done on 
this and the service you provided to the country.
    Before I just get to a couple of questions, Ms. Flournoy, I 
was glad to hear you talk about cybersecurity and perhaps 
better leveraging the private sector in assisting us in better 
protecting the Nation in cyberspace.
    And you are right there--you are right that there are 
incredible capabilities and expertise in the private sector 
that we can more effectively leverage, I believe. I think that 
the President helped to facilitate that with the issue--
issuance of the Executive order recently on cyber.
    And let's not forget, also, of course, the Guard and the 
Reserve, that right now in Rhode Island, for example, the 102nd 
Network Warfare Squadron, you have cyber--effective cyber 
warriors that that is what they are doing in their day job and 
are highly effective, but, yet, they are providing that 
important service to the country. So just an observation.
    And I wanted to ask--on page 50 of the NDPR [National 
Defense Panel Review] report that--you spend a good amount of 
time talking about innovation and the need for specificity in 
the Department's planning and the need to avoid using 
innovation as a substitute for actual investment.
    One point that particularly struck me was the--the panel's 
observation that--and I quote--``It will be increasingly 
important to build and support a culture of innovation at the 
service level, including creating opportunities to compete 
concepts, conduct real experiments, pilot and prototype new 
solutions, risk failure, and learn as an organization. And, 
obviously, this is going to be no small challenge.''
    So what would be needed to effect this kind of change? And 
what in the Department's current structure is holding this 
back?
    Ms. Flournoy. You know, for the last 13 years, I think the 
services have been rightly focused on the wars that we were in 
and making sure that we were focused on innovation in terms of 
dealing with the real-world threats we were dealing with every 
day.
    I think, as we enter this new period and see more 
fundamental changes in the security environment, the services 
have to sort of buy back some of their bandwidth and reallocate 
some of their talent to really be thinking about how will we 
fight differently in the future both because of the challenges 
we will face and the capabilities of future adversaries and 
because of the technological opportunities that are coming 
online as a whole variety of technologies that we listed in the 
report are reaching greater maturity for applications in 
defense.
    And so, you know, to really create an environment of 
innovation, you almost--you need a dramatic change from the 
mentality you take into warfare, which is sort of zero defects, 
no tolerance for, you know, every--you know, lives are on the 
line. You have got to get it right.
    In an environment where you are trying to innovate for the 
future, you have got to have experiments that actually risk 
failure not on the battlefield, but in the laboratory or in an 
exercise. You have got to actually be able to try things that 
may be so far out there that they may fail, they may not work. 
And you learn from that and then you redesign and then you try 
again.
    But it is a very different incentive structure, a very 
different cultural environment, than the one we have been 
living in in the last decade. And so it is going to take 
conscious change and leadership to create that space and those 
incentives inside the services.
    And, again, this sequestration is an enemy of innovation in 
that, if you are trying to survive each day from a budgetary 
perspective, you are not spending a whole lot of time 
innovating for the future.
    Mr. Langevin. Any comment from Mr. Edelman?
    Mr. Edelman. I would just say that--two things.
    One, I think one of our concerns--we, I think, were very 
supportive of the idea of innovation, but wanted to make sure 
that people in the passage you quoted don't just start 
repeating innovation as if it is a mantra of some kind that 
will, you know, get us out of very severe problems that 
sequestration has created.
    Secondly, though, I think--when it comes to creating a 
culture in the Department of Defense that is more open to 
innovation, I think you have to recognize that innovation is 
almost certainly going to be seen by somebody somewhere in the 
Department of Defense as a threat to the existing program of 
record and, therefore, a problem to be managed rather than an 
opportunity to be exploited.
    And I think that is why it is important to have competing 
centers, ideas, some of the things that Secretary Flournoy was 
just talking about, and an openness to--you know, to taking 
risk and having failure, again, not on the battlefield, but in 
exercises, in war games, however you want to try and approach 
it.
    Mr. Langevin. Thank you. Thank you, both.
    Yield back.
    Mr. Coffman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Edelman, Ms. Flournoy, thank you so much for joining 
us, and thanks for your service. We appreciate all the work you 
do on the National Defense Panel.
    I want to go to an issue involving readiness and, really, 
the--the heart of readiness, and that is the concept of risk.
    As was pointed out, risk is sometimes hard to measure 
objective--or subjective, I should say, in many ways. But, 
also, under the law, it requires that the QDR identify the 
resources necessary to implement the National Defense Strategy 
in the low- to moderate-risk realm. We see with sequester 
coming back that it significantly increases risk.
    The question is--today is: Where are we on the risk scale, 
as we speak? Where would we be in the face of sequester fully 
implemented again next year? And what is the best way for 
Congress to communicate that concept of risk to the American 
people as it relates to the decisions we have to make 
concerning this nation's defense posture?
    Mr. Edelman. Mr. Wittman, since I am one of your 
constituents, I think Secretary Flournoy has decided to defer 
this question to me.
    Well, first, I think the panel believed--in terms of where 
we are on the risk continuum, the panel said that, you know, 
unless we lift sequestration, we will very soon be facing a 
high-risk force, and that was based essentially on our reading 
of the chairman's risk assessment. And I think--you know, if we 
face sequestration again, I think the answer is we will be 
there.
    And I--you know, the question that you raise is a good one: 
How do you convey this to the public? Because it is a little 
bit of a slippery concept sometimes. I mean, you know, exactly 
how are you measuring this?
    But I would say I, for one, as a panel member, when we were 
talking with representatives from the Department, was quite 
concerned about what the state of readiness of our forces 
were--our ground forces were, in part, because the Army has 
been one of the big bill-payers for all of these cuts with 
regard what was going on in Crimea and Ukraine.
    And I think, you know, if you start talking about what--how 
little we are able to put on the table right now in terms of 
the defense of Europe, which is something we haven't thought 
about for quite some time, rightly--I mean, I think people felt 
that, you know, Europe was whole and free, the security issues 
there had more or less been resolved, particularly after the 
wars of the Yugoslav succession, now--you know, now we could 
focus on East Asia and the Middle East and maybe even more on 
East Asia than the Middle East. All of that makes perfect 
strategic sense.
    After February, March of this year, it is a little harder 
to think about the world in that way. And so, if you are--if 
you don't have a ready force, if you have low levels of 
readiness, your ability to respond and the kind of options that 
a President has at his or her disposal in the future are going 
to be compromised, and I think that is, you know, one way that 
you can try and make that concrete for your constituents.
    Mr. Wittman. Secretary Flournoy, give me your perspective 
on this whole concept of risk. You know, many times it is tough 
for the public to understand, you know, the strategy if we 
can't deploy forces here or if something breaks out here or 
there.
    I mean, I want to determine what is the most direct and 
simplest way for us to do it. Mr. Edelman was very specific in 
how we do that in a perspective of our forces.
    But I think, boiling it down to maybe the individual level, 
what would be the best way to, say, talk to a citizen off the 
street and say, ``This what increased risk means to our men and 
women that serve''?
    Ms. Flournoy. You know, I think, at the--at the individual 
level, it means a couple of things--service member level.
    It means that--you know, that someone may be sent into a 
mission without having been fully trained for that mission. It 
means they may go as part of a unit that is only partially 
manned, not manned full strength. It means that they may not 
have the best equipment.
    It means that they may--we may lose some of the best and 
brightest talent. You know, if I am an Air Force pilot and I am 
told I can't fly half the hours that I would normally fly to 
maintain proficiency, am I going to stay if I have other 
options?
    The best will probably walk. So it means, over time, losing 
the best and brightest, which is what has, more than anything 
else, always distinguished the All-Volunteer Force from any of 
its competitors.
    And then, at a more strategic level, it means, you know, 
the President--any President, this one or future Presidents, 
having fewer options for responding. It means that we may be 
late to respond. We may do too little.
    We may have more casualties. We may not be as effective. 
And it also means that day to day we are not out there shaping 
the environment, deterring aggression, preventing conflict, as 
much as we could and should be.
    Mr. Wittman. Mr. Chairman, thank you.
    Mr. Edelman, Ms. Flournoy, thank you very much.
    Mr. Edelman. Just if I could add, Mr. Wittman, one of the 
things that I think was of concern to us is that, when you look 
at the timelines we operate on with the current plans we have, 
it is going to be increasingly difficult for us to meet those 
timelines.
    And that--and that means, if we were to find ourselves in a 
conflict, let's say, in the Far East, where, you know, our 
strategy of rebalance as, you know, one of the major areas of 
national interest for us, we are talking about, you know, a 
longer conflict and one in which we will have higher 
casualties.
    Mr. Coffman. Mr. Nugent.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Coffman. Thank you, Mr. Wittman.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I want to thank the panel for being here.
    It is a daunting task, the QDR, particularly all the 
challenges that we face. You know, I have heard from you on 
acquisition reform, readiness, compensation, living up to 
commitments made, the Guard and Reserve, and particularly 
sequestration. And I think we all agree, at least here, that 
sequestration is going to be the death knell for our armed 
services if we don't correct that issue.
    But I hear, you know, time and time again from service 
members, particularly when we start talking about, you know, 
changes in compensation--you know, we all agree that that is 
not going to balance the budget as it relates to what 
Department of Defense needs, and I think that sometimes it is 
how that message is formed and passed on to those service 
members that, you know, are listening.
    Listen, they don't--``sequestration'' is a word that they 
really don't care about or know about, but they do care about 
when, you know, their chain of command is talking about cutting 
benefits and, from the Pentagon's standpoint, as to how, you 
know, we get readiness back on track.
    And I think that is a dangerous precedent to set because, 
for any employee or member of the military, it just sends a 
really disheartening message that ``We really don't care about 
you.''
    I mean, we talk about good things about readiness. But when 
we start talking about taking away things that we have agreed 
to with those members, I think that is a bad tack to take.
    Now, one that we need to address and--obviously, on future 
members. And that is always the way--you know, in my past life, 
we always talked about, ``Okay. What do we do for our current 
members and what do you do for the future members?''
    And it can be different for future members, not necessarily 
the same as what you currently have. And I would like to see 
that really formulated more so that our current members don't 
feel like they are just going to be chucked to the wayside.
    And we talk about readiness. You know, the National Guard 
and Reserve--the National Guard unit that I am very familiar 
with has been, you know, deployed numerous times to Iraq and 
Afghanistan, an aviation unit.
    My son now is a pilot in one of those units and, you know, 
their hours are being cut and they don't even know if they are 
going to have enough hours to maintain proficiency. You can do 
a lot in a simulator, but it is still not the same as grabbing 
the stick and flying.
    How do we resolve that? I mean, short of, if I could wave a 
wand and do away with sequestration, how does--how does the 
Pentagon--how should the Pentagon really address the issue of 
compensation and getting that message out to the troops and, 
also, readiness? How do they do that under current----
    Mr. Edelman. Well, let me take on the compensation point 
for a second and then perhaps Secretary Flournoy will want to 
talk about readiness.
    But I think, as she said earlier, no one is talking, I 
think, about taking benefits away from current Active, you 
know, Duty service members. We--we have an obligation, a 
contractual one.
    I think what we are really talking about is rebalancing 
compensation in the future so that we--we know from, for 
instance, surveys that have been done of service members that 
they tend to value certain benefits more than others, 
particularly at different periods of service, particularly the 
younger members of the service.
    And there may be ways to rebalance compensation to more 
cash benefits in the early period as opposed to deferred 
benefits later that create an enormous fiscal drag on the DOD 
budget over time. And I think that is what we are really 
talking about.
    But I take your point that the way that this is presented 
to the service members is absolutely crucial.
    Mr. Nugent. It is a messaging issue because, I mean, you 
have publications out there that give a different message. And 
I think the Pentagon has just sort of accepted that, and, 
unfortunately, I think it is a mistake. So I agree with you.
    Ms. Flournoy.
    Ms. Flournoy. I am not sure what more I can say on the 
readiness point. But I do--what I--I do think that, if we are 
going to keep forces, we have got to ensure that they are ready 
to meet the timelines of the missions that are assigned to 
them. It doesn't make sense to keep a lot of structure that 
can't be ready. And so I think we need to consider that as we 
find that balance.
    Mr. Nugent. One last point on readiness. And it just--you 
know, you hear readiness versus future weapon platforms and 
particularly as it relates to the A-10 versus the F-35.
    And you talk about, you know, what is currently available 
with the current fight or what fight we could find ourselves in 
today versus the future fight and the F-35 and the problems 
that are, you know, associated with the F-35 and the time to 
implement and the cost.
    Is it--is it worthwhile, though, to scrap a program just 
for a future program, like scrap the A-10 so you can future 
fund the F-35 program when the A-10 program provides for the 
warfighter, the guy on the ground, a huge--a huge advantage? 
And I don't see that particularly going away in the future. I 
mean, don't we have to weigh those two, current capacity versus 
future capacity?
    Ms. Flournoy. You do have to weigh current capacity versus 
future capacity. And, you know, if the budget constraints 
remain, some very hard tradeoffs will have to be made.
    I don't think the Air Force--I think the Air Force 
preference would be to have a budget situation where they could 
keep the A-10s through the end of their service life and have a 
healthy investment in the Joint Strike Fighter. I don't think 
this is their preference.
    They are at this point because they haven't been allowed to 
take the reforms. They have been given a sequestration target, 
and they have got to make tradeoffs somehow. And this--and that 
is why they are at this point. I don't think it is anybody's 
preferred answer.
    But I will say that, if you believe that the security 
environment is only going to become more challenging in the 
future and you have to take some risk, there is some risk to be 
taken today to get--to make sure we are fully prepared for that 
more daunting future.
    I personally would--I would like to see, again, 
sequestration lifted so the tradeoffs are not so draconian, but 
there will have to be tradeoffs at any level of budget. And--
and I think that you have to look at in each case where does it 
make sense to manage risk. You can never eliminate risk 
entirely.
    Mr. Nugent. I appreciate your comments.
    Thank you, Mr. Chairman.
    Mr. Coffman. Former Congressman Jim Marshall, would you do 
me a favor and join us at the table, please.
    Thank you.
    I would like to first thank you all for being involved, I 
think, in this very important project in terms of seeing where 
we can cut costs without compromising national security and see 
where the needs, in terms of prioritizing them, are in terms of 
our national defense.
    There are several issues I want to raise. And that is 
former Secretary of Defense Robert Gates, before he left, I 
think, told this committee on several times--on several 
occasions that the trajectory of personnel costs, the rise in 
personnel costs, are going to eat into acquisitions costs, that 
sometime, if left unchecked, we will become a hollow force.
    And so let me raise to you a couple of issues. One is what 
I sense here is a--is cultural--or institutional friction 
between the Active Duty component and the Guard and Reserves 
when it comes to the allocation of resources between the two.
    I think, as someone who has served in the Army, Army 
Reserve, Marine Corps, and Marine Corps Reserve, that we can 
transfer capability to the Guard and Reserve at a cost savings 
without compromising national security.
    We may have to restructure certain things, like, for 
instance, say that it is--when it becomes a--from an 
operational to a strategic force, that it is no longer, you 
know, 2 weeks out of the year or 1 week in a month, that we 
need more training than that in order to maintain 
effectiveness.
    But I think that there is a savings. I think--if you 
compare the cost of an Active Duty Sergeant E-5 to a Reservist 
Sergeant E-5, I think it is about the third of a cost for 
nondeployed. But, then, when you take in the legacy savings--or 
legacy cost of retirement, then that savings is a lot more.
    I wonder if you all could comment on shifting capability to 
the Guard and Reserve as a cost-saving measure.
    Ms. Flournoy. I think in certain areas that can make a lot 
of sense. I think--but it needs to be driven by a sense of what 
are the capabilities we need in the future, which are best sort 
of parked in the Reserve--you know, where do we need that surge 
capacity and is the Reserve--are the Guard and Reserves the 
right place to hold that and so forth, are there specific skill 
sets where you--they are particularly prevalent in the civilian 
side and you want to leverage those.
    So I think it--as it--in certain cases, it may well apply. 
As a general across-the-board principle, I would be a little 
less comfortable with it. But I think, in certain cases, it is 
exactly as you describe it and it is like that----
    Mr. Coffman. I mean I think that there are expeditionary 
units that you probably wouldn't want to be in that--that--
there. But there are, say, combat service support elements 
that--particularly higher echelon, that have a strong civilian 
nexus professionally that you would do for a savings.
    Congressman Marshall.
    Mr. Marshall. This particular conversation is one that we 
sort of had in the panel discussions and concluded that we just 
had such a broad difference of views on this and it would take 
so much of our time and probably resources to try and figure it 
out that we just wouldn't get into that. And that is one of the 
reasons why you didn't see a lot of discussion of this in the 
panel's report.
    The other thing is that we were very careful to say that we 
encourage the Congress to urge the Department to go through 
another QDR. Now that I have heard both Secretary Flournoy and 
Ambassador Edelman describe how unpleasant that is for the 
Department and how it might itself need to be restructured, I 
am not so sure that they need to be directed to go through 
another QDR, but go through another process that is not so 
resource-constrained, thinking about what our strategic needs 
are and letting the strategic needs drive the budgeting 
decisions as opposed to the opposite.
    And in the process of doing that, among the things that we 
thought might occur were the things that we listed, but we were 
very careful to say ``we think.'' We don't know--because we 
didn't have the capacity to determine what the end strength 
should be--what the appropriate relationship between Guard and 
Reserve and Active Duty should be.
    My own view has been for really quite some time that it 
would be far more cost effective and strategically smart for a 
number of different reasons to rely more on Guard and Reserve 
than we do right now.
    So I agree with your observation and, you know, the 
questions by Mr. Palazzo and Mr. Larsen and a few others that, 
you know, there wasn't much of a discussion of this in the 
National Defense Panel's report is largely because we sort of 
talked about it a little bit and then concluded this is well 
beyond the capability of the panel to come up with the analysis 
that needs to be done in order to--to figure what is the right 
balance.
    I appreciate you calling me to the table. It gives me an 
opportunity to--to say that just the testimony by both Michele 
and Eric evidences conclusively what I have been saying for 
quite some time, that both of them would make excellent 
Secretaries of Defense. Very balanced, very bright, very 
informed.
    Mr. Edelman. Thank you.
    Mr. Marshall. And I also wanted to make a couple of 
structural observations that need to be taken into account as 
we think about how the world is going to work and, more 
specifically, how the Defense Department ought to be working in 
the future.
    You see throughout business this global trend and the 
elimination of middle management. I mean, that--middle 
management is just being cut out, and it is because modern-day 
communication and IT [information technology]-- those two 
combined enable management to not have to rely upon levels and 
levels and levels of middle management.
    When you put that into a government setting, it means that 
ambassadors are kind of frustrated because they don't quite 
have the--they don't have the State Department relying upon 
them as much as the State Department used to rely upon them 
because the State Department and people here in Washington can 
sort of reach right through them and make decisions concerning 
what is going on in different countries without having to rely 
too much upon the in-country team.
    The same thing is going to happen with the Defense 
Department--or is happening where the Defense Department is 
concerned, and it might explain, in part, why so much more is 
being done from a White House perspective as opposed to just 
relying upon the Secretary.
    That is one observation. And it is a trend that is going to 
continue, and it is something that the committee is going to 
have to take into account in trying to figure out what the 
right balance and authorities would be.
    The other is sort of a true confessions thing by me. I 
thought that Michele was very generous to the committee in 
saying that the committee is well aware of all these problems 
and is trying to persuade the rest of Congress what Congress 
needs to do in order to right these problems.
    That is true on the macro issue concerning funding, but it 
is not so true on the more micro issues associated with actual 
management of the Department.
    The reality is that the committee is made up of characters 
like me. Why did I become a member of this committee? Well, I 
had a military background, but my principal background when I 
came to Congress was finance.
    And it would have been natural for me to get on the 
Financial Services Committee. That is where my expertise was. I 
had been in the military, and that is about it. You know, after 
that, I was doing other stuff.
    Why did I become a member of the Armed Services Committee? 
Because it was good for my politics. Why was it good for my 
politics? It was good for my politics because the largest 
employer in my district happens to be Warner Robins air base.
    And when I described what I had to do, what my job was, as 
a Representative elected from my district in middle Georgia, I 
was quite frank. I would say job number one for me is jobs for 
my district. And the largest job producer, you know, the 
largest number of jobs--the economy of the district is 
dependent upon Warner Robins Air Force Base.
    So, in Congress, I had protect Robins Air Force Base as 
number one, grow Robins Air Force Base as number two. And that 
is true of most of the members on the committee. And we all 
know that is the case.
    Mr. Coffman. Let me--let me throw in a question about that 
because--and I will ask concluding remarks when we wrap up.
    Mr. Marshall. I am sorry.
    Mr. Coffman. On the base realignment and closure process, I 
would agree with you that there is a surplus capacity and those 
are wasted defense dollars.
    And the BRAC process, though, only looks at bases inside 
the United States. And so we are asking folks, you know, like 
Representative--former Representative Marshall, but that are on 
this committee today, that have those same economic interests 
to potentially close one of their bases.
    At the same time, the BRAC process does not take into 
account overseas military operations where there are--where you 
have base housing, where you have all of the infrastructure 
supporting families, that could, in fact, be supplanted by 
rotational forces, by major joint military exercises.
    Why shouldn't they be in the mix in the consideration in 
terms of the BRAC process?
    Ms. Flournoy. The truth is, Congressman, that because we 
haven't had--the Department has not been able to execute any 
further BRAC rounds for several years, the primary base 
closures have occurred abroad. If you look at the posture in 
Europe, it has come down to something close to bare bones.
    You look at the posture in Asia, this is an area where we 
say we want to put greater emphasis. Still, we have 
consolidated and closed bases there. Because the services 
couldn't touch domestic basing, so the only place they could 
take money out of infrastructure was overseas.
    So I think if you looked at where overseas infrastructure 
has been from the end of the Cold War till today, you will see 
a very dramatic reduction in that that I think has--you know, 
has the potential to go beyond what is in our strategic 
interests. And so it is not that they--it has been off the 
table. It has been the only place where the services could cut 
for several years.
    Mr. Coffman. But as somebody that has been deployed in 
those facilities, I think it is an archaic notion to--when we 
have the ability to do joint military exercises to demonstrate 
our commitment to our allies, when we have the ability to use 
rotational forces in the place of having these fixed permanent 
facilities, I just think that it is--that from a standpoint of 
equity to the American people, to districts that have large--
that defense--that these bases are a big economic component of 
their district, I think from the standpoint of equity, they 
ought to be in the mix, they ought to be in the mix in terms of 
that.
    Let me go to another issue, and that is that I think we 
have a dinosaur of a retirement system that is in the military, 
and I think that we can in fact come up with a new system that 
will better serve our military, better serve the taxpayers of 
this country, and grandfather in those who are currently on 
Active Duty with an option of coming in a new system if they 
want to. And I think that the new system would be part defined 
benefit, where you--you know, based on the number of years 
served, based on the rank you retired at, or maybe they would 
be vested after 5 years, just to throw that out, and then part 
401(k), part like a TSP [Thrift Savings Plan] program for 
Federal employees, so I think you have those two component 
parts.
    But I think if I were a young soldier again just enlisting 
in the military or even a junior officer when I was in the 
Marine Corps, that I would have opted for such a system, and 
out of the system that says, you have to be 20 years, and if 
you are anything less than 20 years, there is a prospect of you 
leaving the military with no retirement benefits whatsoever. I 
mean, I think that--unless, you know, Congress in a reduction 
in force agrees to do some sort of severance package, but that 
is not--that--there is no requirement for that. And so I would 
like your comment on that.
    Ms. Flournoy. I think this is--you are absolutely on the 
right track, Congressman. I am hoping that the compensation 
review committee that you all put in place will report back 
with some strong recommendations in this area.
    It is an area that we did not get into detail as the NDP, 
knowing that that compensation benefits committee was reviewing 
this, but the idea that 80 percent plus of our service men and 
women walk away with nothing because they don't make it to 20 
years, to me doesn't sound like the right retirement system.
    So I think there are changes to compensation and benefits 
that grandfathering in the commitments that we have already 
made, but going forward could be both more equitable and more 
cost-effective for the Department.
    Mr. Coffman. Any other comments on that? Well, I would love 
to hear concluding remarks from each of you in terms of your 
observations of the process.
    Ambassador, why don't we start with you.
    Mr. Edelman. Well, I actually think, from my point of view, 
this was a terrific process. I think the Congress is well 
served by getting a second opinion on the QDR. And I think that 
the panel that we had, which was somewhat serendipitously 
chosen, because, of course, there--it is, you know, chosen by 
the chairmen and ranking members of the committees in the two 
bodies and then the SecDef choosing two chairmen, you know, we 
ended up with a panel, I thought, that was extremely collegial, 
dedicated to looking at the problem of national defense, not--
not only, as Secretary Perry said, in a bipartisan way, but in 
a non-partisan way.
    And so I think the report that we were able to come up 
with, given the diverse backgrounds that we brought to this and 
diverse kind of political commitments of one sort or another, I 
think stands the Nation in good stead and I hope stands you and 
your colleagues in good stead.
    Mr. Coffman. Ms. Flournoy.
    Ms. Flournoy. Well, thank you very much for this hearing 
and for the support for the panel's work.
    We really tried to issue a call to action, and my hope is 
that this report will help to frame some of the debate and 
discussion for the new Congress to take action on some of these 
issues. We really cannot wait 2 years, 4 years, 6 years, 10 
years, and so I hope that this will provide grist for your mill 
as you engage not only the members of this committee, but the 
other Members in this body to take action to align our 
investment in our military with our strategy and the leadership 
role we need to play in the world.
    Mr. Coffman. Thank you.
    Former Congressman, Jim Marshall.
    Mr. Marshall. Thanks, Mike. I appreciate that.
    It was a real honor and pleasure for me to serve on the 
committee--on the panel, rather, and I found it to be a group 
of very diverse, very well-informed, very well-intentioned 
people who recognized that we didn't have the time nor the 
analytical capability to do what really ought to be done where 
planning is concerned. So you see that the report intentionally 
stayed pretty top level, but it tried to offer language that 
could be used by Members of Congress for arguing the case for 
increased funding, which is critical. You have heard that 
repeatedly today, and I think everybody already knows that. But 
how do you persuade Congress this is the case?
    Among the things that we observed in our report was not 
only was this a--it was a serious strategic misstep for a 
couple of reasons: one is obviously the force is weaker, not as 
ready, we are at higher risk, and at some point we are going to 
be at extremely high risk if we don't reverse this; the other 
is it makes no financial sense. The cuts were intended to 
somehow assist us where the bottom line is concerned.
    Instability in the globe inevitably leads to poor economic 
performance here in the United States. Poor economic 
performance here in the United States drops our Federal revenue 
significantly. And you can go through the numbers. I have done 
this.
    The bottom line is this is bad policy for a couple of 
reasons, one of which is it is not accomplishing what it is 
intended to accomplish, and so for that reason, those who are 
budget hawks should be interested in increasing the defense 
budget, because increasing the defense budget leads to greater 
global stability, given the reality that America really is the 
indispensable nation. It leads to greater global stability, 
which leads to greater global wealth, which leads to greater 
tax revenues.
    I would also add, finishing up on the statement where I was 
trying to hog the microphone earlier, the structure of the 
committee is part of the problem with giving the Defense 
Department the kind of discretion that it ought to have, and it 
is because people like me don't want to take a chance that 
their base or their group of, you know, soldiers or troops 
otherwise, are somehow going to be adversely affected, and so 
we would rather just maintain the status quo by not having 
BRACs, by not giving management authority where it ought to be 
given, that sort of thing. So there is a structural problem 
here in the committee.
    If you took the average Member of Congress and just made 
them--this committee full of the average Members of Congress as 
opposed to the Members of the Congress that have military 
issues that are politically very important to them, if you did 
that, I think it would be a lot easier to get things done. I 
don't know how structurally you get past the structural problem 
here, but you really do need to do that.
    Solving the management issues, though, will not solve the 
budget problem. The top line's got to be increased 
dramatically.
    And thank you for giving me the opportunity to say that.
    Mr. Coffman. Thank you so much.
    I thank all of you for--and those who did not testify and 
are here as well, thank you so much for your dedicated service 
to this particular process, and I hope it leads to fruitful 
results.
    Thank you.
    Hearing is adjourned.
    [Whereupon, at 12:13 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                            December 2, 2014

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 2, 2014

=======================================================================

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
                                  [all]
</pre></body></html>
